APPENDIX

1a
Appendix A
THE SUPREME COURT OF OHIO
____________
RHONDA MEADOWS
v.
JACKSON RIDGE REHABILITATION AND CARE,
et al.
____________
CASE NO. 2019-1197
__________
RECONSIDERATION ENTRY
STARK COUNTY
Decided: 3-11-2020
It is ordered by the court that the motion for
reconsideration in this case is denied.
(Stark County Court of Appeals; No. 2018 CA 00184)
/s/ Maureen O’Connor
Maureen O’Connor
Chief Justice
The Official Case Announcement can be found
at http:/www.supremecourt.ohio.gov/ROD/docs/

2a
Appendix B
THE SUPREME COURT OF OHIO
____________
RHONDA MEADOWS
v.
JACKSON RIDGE REHABILITATION AND CARE,
et al.
____________
CASE NO. 2019-1197
__________
JUDGMENT ENTRY
APPEAL FROM THE COURT OF APPEAL
Decided: 1-21-2020
This cause is pending before the court as an appeal
from the Court of Appeals for Stark County. The
records of this court indicate that appellants have not
filed a merit brief, due January 14, 2020, in
compliance with the Rules of Practice of the Supreme
Court of Ohio and therefore have failed to prosecute
this cause with the requisite diligence.
Upon consideration thereof, it is ordered by the
court that this cause is dismissed.
It is further ordered that appellants’ motion to
proceed to oral argument is denied as moot.

3a
It is further ordered that a mandate be sent to and
filed with the clerk of the Court of Appeals for Stark
County.
(Stark County Court of Appeals; No. 2018 CA
00184)
/s/ Maureen O’Connor
Maureen O’Connor
Chief Justice
The Official Case Announcement can be found
at http:/www.supremecourt.ohio.gov/ROD/docs/

4a
Appendix C
THE SUPREME COURT OF OHIO
____________
RHONDA MEADOWS
v.
JACKSON RIDGE REHABILITATION AND CARE,
et al.
____________
CASE NO. 2019-1197
__________
JUDGMENT ENTRY
APPEAL FROM THE COURT OF APPEAL
Decided: 11-6-2019
Upon consideration of the jurisdictional
memoranda filed in this case, the court accepts the
appeal on Proposition of Law No. I only. The clerk
shall issue an order for the transmittal of the record
from the Court of Appeals for Stark County, and the
parties shall brief this case in accordance with the
Rules of Practice of the Supreme Court of Ohio.
(Stark County Court of Appeals; No. 2018 CA
00184)
/s/ Maureen O’Connor
Maureen O’Connor
Chief Justice

5a

The Official Case Announcement can be found
at http:/www.supremecourt.ohio.gov/ROD/docs/

6a
Appendix D
IN THE COURT OF APPEALS
FOR STARK COUNTY, OHIO
FIFTH APPELLATE DISTRICT
____________
RHONDA MEADOWS
Plaintiff-Appellee
v.
JACKSON RIDGE REHABILITATION AND CARE,
et al.
Defendants-Appellants
____________
CASE NO. 2018 CA 00184
__________
JUDGMENT ENTRY
Entered: 7-15-2019
For the reasons stated in our accompanying
Memorandum-Opinion, the judgment of the Court of
Common Pleas of Stark County, Ohio, is affirmed.
Costs assessed to Appellants.
/s/John W. Wise
HON. JOHN W. WISE

7a
/s/ W. Scott Gwin
HON. W. SCOTT GWIN
/s/ Patricia D. Delaney
HON. PATRICIA D. DELANEY

8a
Appendix E
IN THE COURT OF APPEALS
FOR STARK COUNTY, OHIO
FIFTH APPELLATE DISTRICT
____________
RHONDA MEADOWS
Plaintiff-Appellee
v.
JACKSON RIDGE REHABILITATION AND CARE,
et al.
Defendants-Appellants
____________
CASE NO. 2018 CA 00184
__________
OPINION
7-15-2019
JUDGES:
Hon. W. Scott Gwin, P.J.
Hon. John W. Wise, J.
Hon. Patricia A. Delaney, J.
CHARACTER OF
PROCEEDING:

Civil Appeal from the
Court of Common Pleas,
Case No. 2015 CV 02169

9a
JUDGMENT:

Affirmed

DATE OF JUDGMENT
ENTRY:

July 15, 2019

APPEARANCES:
For Plaintiff-Appellee
Appellants
ROBERT J. TSCHOLL
400 South Main Street
North Canton, Ohio 44720

For DefendantsG. BRENDA COEY
THE COEY LAW
FIRM LLC
29225 Chagrin Blvd.,
Suite 230
Cleveland, Ohio 44122

Wise, J.
{¶1} Defendant-appellants
Jackson
Ridge
Rehabilitation and Care and Providence Healthcare
Management, Inc. [collectively “Appellants”] appeal
the December 5, 2018, Judgment Entry of the Stark
County Court of Common Pleas granting Appellee
Rhonda Meadows’ motion for attorney fees.
STATEMENT OF THE FACTS AND CASE
{¶2} The relevant facts and procedural history
are as follows.
{¶3} Appellee Rhonda Meadows is a registered
nurse. She was hired by Appellants to be the director
of nursing at Jackson Ridge Rehabilitation and Care
in September 2014. Jackson Ridge is the registered
trade name of Gaslite Leasing, LLC and Providence

10a
Healthcare Management is an affiliated management
company.
{¶4} Meadows’ terms of employment included
health care under the employer sponsored health care
plan. Meadows took advantage of that offered benefit
and began working for Appellants at Jackson Ridge on
or about October 17, 2014.
{¶5} In May 2015, Meadows suffered an acute
medical condition and required time off for surgery.
Meadows
contacted
Appellants’
management
regarding her need for surgery. Appellants requested
that Meadows wait until the annual survey was
completed before surgery was scheduled.
{¶6} In mid-June 2015, Meadows medical
condition became emergent and she returned to her
physician. The surgery was scheduled for June 26,
2015. Meadows immediately conveyed to Appellants
her need for surgery. Meadows claimed that she was
informed on June 25, 2015 that if she had the surgery
she would be terminated from her employment.
{¶7} Meadows claimed she had the surgery to
relieve her pain on June 26, 2015. She later learned
that not only had Appellants terminated her
employment on June 25, 2015, but they had
terminated her health care insurance as well, so her
surgery and hospital stay were not covered. However,
Meadows contended that Appellants continued to
deduct health care premiums from her pay, which was
shown on her last pay stub on July 3, 2015.
{¶8} Meadows filed suit on October 16, 2015.

11a
{¶9} On October 23, 2015, Jackson Ridge
received service of Meadows’ Complaint.
{¶10} Jackson Ridge failed to timely answer, and
Meadows moved the trial court for default judgment
against Appellants on Friday, December 4, 2015.
{¶11} On Monday, December 7, 2015, the trial
court granted default judgment.
{¶12} On December 11, 2015, Jackson Ridge
moved the trial court for leave to file its Answer
instanter.
{¶13} On December 15, 2015, Appellants filed a
Civ.R. 60(B) Motion for Relief from Judgment.
{¶14} On August 25, 2016, following a hearing
conducted by the Magistrate, the trial court denied
these Motions.
{¶15} On September 9, 2016, the trial court set a
Damage hearing for October 27, 2016.
{¶16} On September 23, 2016, Appellant filed a
Notice of Appeal with this Court. See Case No. 2016
CA 00174.
{¶17} On October 24, 2016, this Court dismissed
the appeal as not a final appealable order.
{¶18} The trial court reset the damage hearing for
December 16, 2016.
{¶19} On December 15, 2016, Appellants filed a
Motion to Dismiss for Lack of Jurisdiction. The parties

12a
briefed the Motion and it was denied on April 26,
2017.
{¶20} The trial court set a third damages hearing
for May 18, 2017.
{¶21} On May 18, 2017, Appellee and her counsel
appeared. Appellants and their counsel did not. The
magistrate called the Appellant’s attorney and
learned that the attorney had left the firm and had
not updated her address with the Stark County
Common Pleas Court or with the Ohio Supreme
Court. (May 18, 2017, T. at 3-4).
{¶22} The magistrate proceeded with the hearing
on May 18, 2017 and entered a decision on June 21,
2017. The Court entered judgment for Meadows and
against Appellants in the amount of Seventy-Three
Thousand Three Hundred Fifty-Seven 05/100 Dollars
($73,357.05) plus interest.
{¶23} On June 30, 2017, Appellants filed a Motion
for Stay and objections to the magistrate’s decision.
{¶24} On July 3, 2017, Appellants filed a motion to
set aside the judgment of June 21, 2017.
{¶25} On October 5, 2017, the trial court overruled
those objections and adopted the Magistrate’s
Decision as a Final Entry.
{¶26} Appellants appealed the trial court’s
judgment entry to this Court, which dismissed the
appeal for lack of a final appealable order based on the
fact that the trial court failed to explicitly rule on the
issue of attorney fees. See Case No. 2017CA00207.

13a

{¶27} On September 7, 2018, subsequent to the
remand,
Appellants
filed
a
Motion
for
Reconsideration, arguing that Appellee’s claims were
completely pre-empted and within the exclusive
jurisdiction of the federal courts.
{¶28} By Judgment Entry filed November 6, 2018,
the trial court denied Appellants’ motion for
reconsideration.
{¶29} By Magistrate’s Decision/Judgment Entry
filed December 5, 2018, the trial court granted
Appellee’s motion for attorney fees, entering judgment
in favor of Appellee in the amount of Nineteen
Thousand Dollars ($19,000.00).
{¶30} Appellants now appeal, raising the following
assignments of error:
ASSIGNMENTS OF ERROR
{¶31} “I. THE TRIAL COURT LACKED
SUBJECT MATTER JURISDICTION TO DECIDE
PLAINTIFF-APPELLEE’S CLAIMS.
{¶32} “II. THE TRIAL COURT ERRED IN
GRANTING PLAINTIFF-APPELLEE’S MOTION
FOR DEFAULT JUDGMENT AND DENYING
DEFENDANTS-APPELLANTS’ MOTION TO SET
ASIDE DEFAULT JUDGMENT.
{¶33} “III. THE TRIAL COURT ERRED IN
AWARDING
DAMAGES
BEYOND
THOSE
AUTHORIZED BY STATUTE.”

14a
I.
{¶34} In their first assignment of error,
Appellants argue that the trial court lacked subject
matter jurisdiction to hear Appellee’s claims. We
disagree.
{¶35} Subject-matter jurisdiction is a threshold
issue and must be determined prior to the merits.
Appellants assert that the trial court’s interpretation
of ERISA is wrong. However, Appellants’ argument
erroneously equates preemption with jurisdiction.
{¶36} Generally, state tribunals have the
authority to decide questions of federal law, including
questions of federal preemption. El Paso Natural Gas
Co. v. Neztsosie (1999), 526 U.S. 473, 486, 119 S.Ct.
1430, 143 L.Ed.2d 635, fn. 7 (“Under normal
circumstances, * * * state courts * * * can and do
decide questions of federal law, and there is no reason
to think that questions of federal preemption are any
different”). A state tribunal is not deprived of
jurisdiction to decide federal questions unless
Congress intends a federal forum to be the exclusive
jurisdiction in an area, such as it did in the case of the
NLRB. See lnternatl. Longshoremen’s Assn., AFLC/O v. Davis (1986), 476 U.S. 380, 391, 106 S.Ct.
1904, 90 L.Ed.2d 389 (holding that preemption under
Garmon extinguishes state jurisdiction). In Section
77r, however, Congress has not expressed such an
intention, and in fact, has merely designated a choice
of federal law over state law. Therefore, in this matter,
preemption is unrelated to jurisdiction, and
jurisdiction remains a threshold question.

15a
{¶37} In the case of Cunningham v. Aultcare
Corporation, 5th Dist. No. 2002-CA-00375, 2003-Ohio3085, this Court discussed the preemption of Ohio law
by federal law. We said:
At issue in this case is whether, in the case sub
judice, Ohio law is preempted by federal law
with respect to the enforceability of the
reimbursement clause in the insurance
contract between appellant and appellees. In
order to address such issue, we must first
distinguish between complete preemption and
ordinary preemption. * * * [A] plaintiff may
generally avoid federal jurisdiction entirely by
pleading solely state law claims. Franchise Tax
Bd. of Calif v. Constr. Laborers Vacation Trust
for S. Cal. (1983), 463 U.S. 1, 103 S.Ct. 2841, 77
L.Ed.2d 420. However, there is an exception to
this general rule. If federal law completely
preempts a plaintiff’s state law claim,
regardless of the artfulness of the pleading, a
plaintiff cannot escape federal jurisdiction.
Botsford v. Blue Cross and Blue Shield of
Montana, Inc. (2002), 314 F.3d 390. “To
preempt state-law causes of action completely,
federal law must both: (1) conflict with state
law (conflict preemption) and (2) provide
remedies that displace state law remedies
(displacement).” Id. at 393. While ordinary
preemption is a defense to the application of
state law and may be invoked in either federal
or state court, in contrast, complete preemption
provides a basis for federal jurisdiction as
opposed to simply a defense. See Caterpiller,
Inc. v. Williams (1987), 482 U.S. 386, 107 S.Ct.
2425, 96 L.Ed.2d 318. In the case of complete

16a
preemption, removal to federal court is proper.
See Bastien v. AT & T Wireless Services, Inc.,
(2000), 205 F.3d 983. Cunningham, ¶ 15,
emphasis sic.
{¶38} In Richland Hospital, Inc. v. Ralyon, 33
Ohio St.3d 87, 516 N.E.2d 1236 (1987), the Ohio
Supreme Court found state and federal courts have
concurrent jurisdiction to determine benefits and
award attorney fees in an appropriate case, but state
courts have no jurisdiction to determine what the
court termed “extracontractual benefits”, such as
punitive damages. The court also found federal courts
have exclusive jurisdiction over claims for breach of
fiduciary duty.
{¶39} In the case at bar, Meadows brought a claim
under the Employee Income Retirement Security Act
of 1974 [“ERISA”], seeking reimbursement of the
healthcare costs she incurred as a result of the
cancellation of her healthcare coverage and
interference with her rights to use the plan, breach of
contract, and bad faith. Appellee did not bring a
breach of fiduciary duty claim. As stated above,
Appellants failed to respond to the Complaint, and the
trial court entered Default Judgment.
{¶40} In Raylon, the Ohio Supreme Court
reviewed a case similar to the one at bar. Plaintiffs
received verification of medical benefits coverage from
a plan trustee, and one of the plaintiffs then received
treatment requiring a forty-day stay in a hospital.
Subsequently, the insurance provider denied the
plaintiffs’ claim for benefits, determining that,
because the hospital lacked on-site surgical facilities,
it was not a “hospital” within the plan’s definition of a

17a
covered hospital. The patient and her husband
brought suit against the insurance company for
expressly,
intentionally
and
maliciously
misrepresenting the plan coverage and asked for
indemnification of the hospital and doctor bills they
had incurred, as well as punitive damages and
attorney fees. The Ohio Supreme Court cited Section
1132(e)(1), Title 29, U.S.Code distinguishing between
exclusive jurisdiction of federal courts and concurrent
jurisdiction between state and federal courts. It
provides:
(e)(1) Except for actions under subsection
(a)(1)(B) of this section, the district courts of the
United States shall have exclusive jurisdiction
of civil actions under this subchapter brought
by the Secretary or by a participant,
beneficiary, or fiduciary. State courts of
competent jurisdiction and district courts of the
United
States
shall
have
concurrent
jurisdiction of actions under subsection
(a)(1)(B) of this section.
Subsection (a)(1)(B) provides a participant may
bring a civil action “to recover benefits due to
him under the terms of his plan, to enforce his
rights under the terms of the plan, or to clarify
his rights to future benefits under the terms of
the plan.”
{¶41} The Supreme Court interpreted the above
language to mean the common pleas court had
concurrent jurisdiction over the claims for denial of
benefits and for attorney fees, but ERISA vested
exclusive jurisdiction to federal courts for punitive
damages. The court vacated the award of punitive

18a
damages and remanded the remainder of the case to
the trial court because it had applied Ohio state law
instead of ERISA. It did not order the trial court to
dismiss the action for lack of jurisdiction, even though
it appears there were no state-law claims in the case.
{¶42} We have reviewed the complaint and find it
does not appear beyond doubt that appellee can prove
no set of facts warranting a recovery under both state
law and federal law. We further find the trial court
has concurrent jurisdiction with the federal courts
and can apply federal law to the ERISA claims.
{¶43} Appellants’ first assignment of error is
overruled.
II.
{¶44} In their second assignment of error,
Appellants argue the trial court erred in denying
Appellants’ Civ.R. 60(B) motion seeking relief from
judgment.
{¶45} Civ.R. 60(B) states as follows:
(B) Mistakes; Inadvertence; Excusable Neglect;
Newly Discovered Evidence; Fraud; Etc. On
motion and upon such terms as are just, the
court may relieve a party or his legal
representative from a final judgment, order or
proceeding for the following reasons: (1)
mistake, inadvertence, surprise or excusable
neglect; (2) newly discovered evidence which by
due diligence could not have been discovered in
time to move for a new trial under Rule 59(B);
(3) fraud (whether heretofore denominated

19a
intrinsic or extrinsic), misrepresentation or
other misconduct of an adverse party; (4) the
judgment has been satisfied, released or
discharged, or a prior judgment upon which it
is based has been reversed or otherwise
vacated, or it is no longer equitable that the
judgment should have prospective application;
or (5) any other reason justifying relief from the
judgment. The motion shall be made within a
reasonable time, and for reasons (1), (2) and (3)
not more than one year after the judgment,
order or proceeding was entered or taken. A
motion under this subdivision (B) does not
affect the finality of a judgment or suspend its
operation.
{¶46} A motion for relief from judgment under
Civ.R. 60(B) lies in the trial court’s sound discretion.
Griffey v. Rajan, 33 Ohio St.3d 75, 514 N.E.2d 1122
(1987). In order to find an abuse of that discretion, we
must determine the trial court’s decision was
unreasonable, arbitrary or unconscionable and not
merely an error of law or judgment. Blakemore v.
Blakemore, 5 Ohio St.3d 217, 450 N.E.2d 1140 (1983).
{¶47} In GTE Automatic Electric Inc. v. ARC
Industries, Inc., 47 Ohio St.2d 146, 351 N.E.2d 113
(1976), paragraph two of the syllabus, the Supreme
Court of Ohio held the following:
To prevail on a motion brought under Civ.R.
60(B), the movant must demonstrate that: (1)
the party has a meritorious defense or claim to
present if relief is granted; (2) the party is
entitled to relief under one of the grounds
stated in Civ.R. 60(B)(1) through (5); and (3) the

20a
motion is made within a reasonable time, and,
where the grounds of relief are Civ.R. 60(B)(1),
(2) or (3), not more than one year after the
judgment, order or proceeding was entered or
taken.
{¶48} Appellants, in the case sub judice, allege in
their motion that they were entitled to relief from
judgment
because
Providence
Healthcare
Management timely answered the Complaint after
being served with the Summons and Complaint on
December 22, 2015, and (2) Jackson Ridge’s failure to
answer was due to excusable neglect.
{¶49} Initially, we find that Appellee attempted
service on Providence Healthcare through its
statutory agent at the registered address. Service
upon a corporation may be achieved by serving the
statutory agent of the corporation. R.C. §1701.07(H);
Civ.R. 4.2(F). The statutory agent may be served at
the address as it “appears upon the record in the office
of the secretary of state.” R.C. §1701.07(H). If the
statutory agent changes the address from that
appearing upon the record in the office of the
Secretary of State, the corporation or statutory agent
“shall forthwith file” the new address with the
Secretary of State. (Emphasis added.) R.C.
§1701.07(E).
{¶50} Further, we find that both Providence and
Gaslite had actual notice in this matter. An Affidavit
filed by Appellants demonstrates that Gaslite
informed Providence of the lawsuit prior to the
Answer date, however, Providence failed to file a
timely answer.

21a
{¶51} In the instant case, Appellee served Gaslite
Leasing, LLC with a copy of the Complaint on October
23, 2015. Appellee served Jackson Ridge as a
registered trade name of Gaslite Leasing, LLC.
{¶52} R.C. §1329.10(C) provides that “[a]n action
may be commenced or maintained against the user of
a trade name or fictitious name whether or not the
name has been registered or reported in compliance
with R.C. §1329.01 of the Revised Code.”
{¶53} R.C. §1309.01(A)(2) defines a “fictitious
name” as a “name used in business or trade that is
fictitious and that the user has not registered or is not
entitled to register as a trade name.”
{¶54} The purpose of R.C. §1329.10 is to encourage
the registration and reporting of fictitious names with
the state. Family Med. Found., Inc. v. Bright, 96 Ohio
St.3d 183, 2002-Ohio-4034, 772 N.E.2d 1177, ¶ 10.
Thus, the Ohio Supreme Court held in Family Med.
Found. that “we believe that the General Assembly
intended for R.C. 1329.10(C) to allow suit to be
brought against a fictitious party named only by its
fictitious name.” Id. It stated that it agreed with the
statement that a defendant should not be allowed “to
profit by the confusion resulting from its having done
business under a fictitious name.” Id. at ¶ 11, 772
N.E.2d 1177, quoting Zinn v. Pine Haven, Inc., 5th
Dist. Tuscarawas No. 1578, 1982 Ohio App. LEXIS
14133, *4, 1982 WL 11268 (Aug. 12, 1982).
{¶55} Appellants specifically argue the trial court
erred in finding no excusable neglect. Appellants
argue that they forwarded the Complaint to their legal
counsel, and due to a miscommunication they were

22a
under the mistaken belief that counsel had filed an
answer.
{¶56} To determine whether neglect is “excusable”
under Civ.R. 60(B)(1), a court must consider all the
surrounding facts and circumstances. Rose Chevrolet,
Inc. v. Adams, 36 Ohio St.3d 17, 520 N.E.2d 564
(1988). Excusable neglect has been defined as some
action “not in consequence of the party’s own
carelessness, inattention, or willful disregard of the
process of the court, but in consequence of some
unexpected or unavoidable hindrance or accident.”
Maggiore v. Barensfeld, 5th Dist. Stark Nos.
2011CA00180, 2012-Ohio-2909, 2012 WL 2415184.
{¶57} It is well-settled that mere carelessness on a
litigant’s part, or on the part of his or her attorney, is
not sufficient to rise to the level of mistake,
inadvertence, surprise, or excusable neglect.
Muskingum Watershed Conservatory District v.
Kellar, 5th Dist. Tuscarawas No. 2011AP020009,
2011-Ohio-6889, 2011 WL 6949234; Blaney v.
Kerrigan, 5th Dist. Fairfield No. 12-CA-86, 1986 WL
8646 (Aug. 4, 1986). “Excusable neglect is not present
if the party seeking relief could have prevented the
circumstances from occurring.” Maggiore v.
Barensfeld, 5th Dist. Stark Nos. 2011CA00180,
2011CA00230, 2012-Ohio-2909, 2012 WL 2415184;
Stevens v. Stevens, 5th Dist. Fairfield No. 16-CA-17,
2016-Ohio-7925.
{¶58} Based on the foregoing, we find that the trial
court did not err in denying appellants’ 60(B) motion
for relief for judgment.

23a
{¶59} Appellants’ second assignment of error is
overruled.
III.
{¶60} In their third assignment of error,
Appellants argue the trial court erred in awarding
damages beyond those authorized by statute. We
disagree.
{¶61} Appellants herein argue that the only
damages available under ERISA were damages for
back pay and medical bills. Appellants maintain that
the damages awarded by the trial court for
compensatory damages, full medical bills, front
pay/diminution of wages, and punitive damages were
improper.
{¶62} Initially we note that Appellants failed to
answer the Complaint in this matter and failed to
show and/or defend at the damages hearing. The place
for Appellants to contest whether, and to what extent,
they are liable to Appellee in damages is in the court
where the civil action was filed.
{¶63} We further find Appellants did not file
objections to the Magistrate’s Decision on Attorney
fees as required by Civ.R. 53. We therefore agree with
Appellee that Appellants have waived their right to
appeal the magistrate’s decision and the trial court’s
adoption of the same.
{¶64} As we explained in Lemon v. Lemon, 5th
Dist. Stark No. 2010CA00319, 2011-Ohio-1878, ¶ 6364:

24a
{¶65} Civ.R. 53(D)(3)(b)(iv) provides that “[a]
party shall not assign as error on appeal the court’s
adoption of any factual findings or legal conclusion * *
* unless the party has objected to that finding or
conclusion * * *.” See, e.g., Stamatakis v. Robinson
(January 27, 1997), Stark App.No. 96CA303;
Kademenos v. Mercedes-Benz of North America, Inc.
(March 3, 1999), Stark App. No. 98CA50.
{¶66} Civ.R. 53(D)(3)(b)(iv) further provides:
“Except for a claim of plain error, a party shall not
assign as error on appeal the court’s adoption of any
factual finding or legal conclusion, whether or not
specifically designated as a finding of fact or
conclusion of law under Civ.R. 53(D)(3)(a)(ii), unless
the party has objected to that finding or conclusion as
required by Civ.R. 53(D)(3)(b).”
{¶67} However, the plain error doctrine is not
favored and may be applied only in the extremely rare
case involving exceptional circumstances where error,
to which no objection was made at the trial court,
seriously affects the basic fairness, integrity, or public
reputation of the judicial process, thereby challenging
the legitimacy of the underlying judicial process itself.
Dorsey v. Dorsey, Fifth Dist. App.No. 2009-CA-00065,
2009-0hio-4894; Goldfuss v. Davidson, 79 Ohio St.3d
116, 679 N.E.2d 1099, 1997-0hio-401, at syllabus.
{¶68} Based upon the failure of Appellants to
object to the magistrate’s decision, and our failure to
find any plain error, we reject Appellants’ third
assignment of error and hereby overrule same.
{¶69} The judgment of the Court of Common Pleas,
Stark County, Ohio, is affirmed.

25a

By: Wise, J.
Gwin, P. J., and
Delaney, J., concur.
/s/John W. Wise
HON. JOHN W. WISE
/s/ W. Scott Gwin
HON. W. SCOTT GWIN
/s/ Patricia D. Delaney
HON. PATRICIA D. DELANEY
JWW/d 0702

26a
Appendix F
IN THE COURT OF COMMON PLEAS
STARK COUNTY, OHIO
____________
RHONDA MEADOWS
Plaintiff
v.
JACKSON RIDGE REHABILITATION AND CARE,
et al.
Defendants
____________
CASE NO. 2015CV02169
__________
JUDGMENT ENTRY
Entered: 12-7-2015
For good cause shown Plaintiff Rhonda
Meadows’ Motion for Default Judgment is hereby
granted. A damage hearing is scheduled for Dec 29th,
2015.
/s/ John G. Haas
Judge John G. Haas

27a
Appendix G
IN THE COURT OF COMMON PLEAS
STARK COUNTY, OHIO
____________
RHONDA MEADOWS
Plaintiff
v.
JACKSON RIDGE REHABILITATION AND CARE,
et al.
Defendants
____________
CASE NO. 2015CV02169
__________
MAGISTRATE’S DECISION/JUDGMENT ENTRY
Entered 8-25-2016
This matter came on for consideration upon a
Motion for Relief from Judgment pursuant to Civil
Rule 60(B), which motion was filed by Defendant
Jackson Ridge Rehabilitation and Care and
Providence Healthcare Management, Inc. Plaintiff
filed a brief in opposition to Defendants’ motion. The
Court conducted an evidentiary hearing on
Defendants’ motion and a decision is hereby rendered.
This lawsuit was filed on October 16, 2015.
Plaintiff’s Complaint alleges claims against
Defendants for violation of ERISA, breach of contract,
and bad faith. These claims arise out of Plaintiff’s

28a
termination of employment from Jackson Ridge. Per
the Complaint, Plaintiff required immediate surgery
and requested leave time which was allegedly denied
by Defendants. Additionally, Plaintiff alleges claims
for violation of ERISA and breach of contract due to
Defendants allegedly cancelling Plaintiff’s health
insurance notwithstanding the fact Plaintiff paid her
payroll deductions for her coverage through July.
Defendants maintain that Plaintiff was provided
with a Consolidated Omnibus Budget Reconciliation
Act (COBRA) continuation of health insurance
coverage form by her insurance carrier which would
that applied retroactively to provide her with health
insurance coverage from the date of her termination.
Jurisdiction Over Providence
Providence argues that the Court has no
jurisdiction over it because it had not been properly
served by Plaintiff when default judgment was
entered. The Court disagrees.
Plaintiff served Jackson Ridge as a registered
trade name of Gaslite Leasing, LLC. After examining
the filings with the Ohio Secretary of State, and
attempted to serve Providence at the registered
address. Defendants acknowledge that they had
actual knowledge of the filing of the Complaint.1

1

See Affidavit of Laurie Urbanowicz.

29a
Registered Trade Name
Jackson Ridge is a registered trade name owned by
Gaslight Leasing, LLC. Defendants argue that any
judgment against Jackson Ridge is void because an
action can only be commenced against the corporate
entity.
Courts have held that R.C. 1329.10(C) permits
suits against parties named only by their fictitious
names.2 This is especially true when the interested
parties had actual notice of the suit.
Plaintiff served Jackson Ridge c/o Gaslight
Leasing, LLC. Once again, Defendants had actual
knowledge of the filing of the Complaint. They cannot
now avoid liability and “profit from the confusion
resulting from its having done business under a
fictious name.”3
Civil Rule 60(B)
Defendants request relief from judgment pursuant
to Civ. R. 60(B)(1) and Civ. R. 60(B)(5).
Ohio Civil Rule 60(B) states in pertinent part:
On motion and upon such terms as are just, the
court may relieve a party or his legal
representative from final judgment, order, or
Family Medicine Foundation, Inc. v. Bright, 96 Ohio St.3d 183,
2002-Ohio-4043; Zinn v. Pine Haven (Aug. 12, 1982), Tuscarawas
App. No. 1578, 1992WL11268.
3 Bright, supra, quoting Zinn.
2

30a
proceeding for the following reasons: (1)
mistake, inadvertence, surprise or excusable
neglect; (2) newly discovered evidence which by
due diligence could not have been discovered in
time for a new trial under Rule 59(B); (3) fraud,
misrepresentation or other misconduct of an
adverse party; (4) the judgment has been
satisfied, released or discharged, or a prior
judgment upon which it is based has been
reversed or otherwise vacated, or it is no longer
equitable that the judgment should have
prospective application; or (5) any other reason
justifying relief from the judgment.”
The movant must make more that bare allegations
that he or she is entitled to relief.4
The Fifth District Court of Appeals reiterated the
standard for a Civ. R. 60(B) motion:5
[I]n order to prevail on a motion pursuant to
Civ.R.60(B), “ * * * the movant must
demonstrate that: (1) the party has a
meritorious defense or claim present if relief is
granted; (2) the party is entitled to relief under
one of the grounds stated in Civ.R. 60(B)(1)
through (5); and (3) the motion is made within
a reasonable time, and, where the grounds for
relief are Civ.R. 60(B)(1), (2) or (3), not more
than one year after the judgment, order or
Kay v. Marc Glassman, Inc. (1996), 76 Ohio St.3d 18.
Leisure v. State Farm Mutual Automobile (1998), 1998 WL
753195 (Ohio App. 5th Dist.). See also, Donovan v. Middleton
(1998), 1998 WL 172854 (Ohio App. 5th Dist.)
4
5

31a
proceedings was entered or taken.” Argo Plastic
Products Co. v. Cleveland (1984), 15 Ohio St.3d
389, 391, 474 N.E.2d 328, citing GTE Automatic
Electric v. ARC Industries (1976), 47 Ohio St.2d
146, 351 N.E.2d 113, paragraph two of the
syllabus.
Additionally, these three requirements are
independent and are to be read in the conjunctive, not
the disjunctive.6 All three elements must be
established in order to prevail on a Civ. R.60(B)
motion.7
Meritorious Defense
The Court finds that Defendant has presented a
meritorious defense. In setting forth a meritorious
defense, a defendant need not establish that his
defense will be ultimately successful.8
Specifically, Defendant asserts that Plaintiff was
an at-will employee and that she was provided with a
COBRA coverage form which form she did not
complete. Defendant also denies that Plaintiff was
charged to for health benefits that she did not receive.
Mistake, Inadvertence, and Excusable Neglect
Jackson Ridge was served with the Summons and
Complaint on October 23, 2015. Accordingly, Jackson
GTE at 151.
Mount Olive Baptist Church v. Pipkins Paints (1979), 64 Ohio
App.2d 285, 287.
8 CB Group, Inc. v. Starboard Hospitality, LLC, 8th Dist. No.
93387, 2009-Ohio-52.
6
7

32a
Ridge was required to move or to otherwise plead on
or before November 20, 2015. Upon receipt of the
Complaint, Jackson Ridge’s Administrator, Paul
Deutsch, sent the Complaint to Providence for
submission to defense counsel. Providence then
forwarded the Complaint to defense counsel who,
according to Human Resources director Laura
Urbanowicz, indicated he would defend this this
lawsuit on behalf of Jackson Ridge. Due to
miscommunication, Jackson Ridge was under the
mistaken belief that counsel had filed an Answer.
Upon receipt of Plaintiff’s Motion for Default
Judgment, Jackson Ride hired new counsel.
Excusable neglect does not include a party’s own
carelessness, inattention or willful disregard of the
process of the court.9 Gross carelessness is not
enough.10 Further, under 60(B), excusable neglect
requires more than the failure of an attorney to file
the necessary documents.11
Finally, Jackson Ridge has not established “any
other reason justifying relief form the judgment”
under Civ.R. 60 (B)(5).
Because Jackson Ridge did not establish that it is
entitled to relief from judgment for mistake,

Vanest v. Pillsbury Co. (1997), 124 Ohio App.3d 525, 536.
See, State v. The Bug Inn (April 5, 1991), Miami App. No.
90CA23, quoting Wright & Miller, Federal Practice and
Procedure, Vol. 11, Section 2858.
11 See, Pamela Kovalchik, Applee v. Dominic Fallucco dba
Dominic’s Automotive Service, 9th Dist. No.16670 (1994).
9

10

33a
inadvertence, and excusable neglect, there is no need
to address the other elements under Rule 60(B).
Accordingly, it is hereby
ORDERED, ADJUDGED and DECREED that
Defendants’ motion for relief from judgment is
DENIED.
IT IS SO ORDERED.

IT IS SO ORDERED.

/s/ Natalie R. Haupt
_
MAGISTRATE NATALIE R. HAUPT
Adopted and Approved:
/s/ John G. Haas
JOHN G. HAAS, JUDGE

_

NOTICE TO THE PARTIES:
A party shall not assign as error on appeal the Court’s
adoption of any factual or finding or legal conclusion,
whether or not specifically designated as a finding of
fact or conclusion of law under Civ. R. 53(D)(3)(a)(ii),
unless the party timely and specifically objects to that

34a
factual finding or legal conclusion as required by Civ.
R. 53(D)(3)(b).
Copies to:

Atty. Robert J. Tscholl
Atty. G. Brenda Coey

35a
Appendix H
I IN THE COURT OF COMMON PLEAS
STARK COUNTY, OHIO
____________
RHONDA MEADOWS
Plaintiff
v.
JACKSON RIDGE REHABILITATION AND CARE,
et al.
Defendants
____________
CASE NO. 2015CV02169
__________
JUDGMENT ENTRY
Entered: 4-26-2017
This matter came on for consideration upon
Defendants’ Motion to Dismiss for Want of
Jurisdiction. Plaintiff filed a Response.
Procedural History
Plaintiff, Rhonda Meadows, filed a Complaint for
violation of her rights under ERISA. Generally,
Plaintiff alleges that her employment at Jackson
Ridge Rehabilitation and Care (“Jackson Ridge”) was
terminated on June 25, 2015 because she needed to

36a
use the health insurance benefits afforded by the
facility’s health insurance plan.
The Complaint was served on Jackson Ridge on
October 23, 2015. Jackson Ridge failed to timely file
an Answer to the Complaint, resulting in default
judgment being rendered against the facility.
The Court overruled Defendants’ Motion to file
Answer Out of Time and Motion for Relief for
Judgment. The Court set the matter for a hearing on
damages. On the eve of the hearing date, Defendants
filed the instant motion.
Jurisdiction and Preemption
Defendants move this Court to dismiss Plaintiffs
claims on the basis that this Court lacks jurisdiction.
Specifically, Defendants maintain that, because
Plaintiff has asserted claims under Section 510 of the
Employee Retirement Income Security Act of 1974
(“ERISA”), only the federal courts have jurisdiction.
It is true that state law insurance claims are
preempted by the regulatory framework of ERISA.
However, federal preemption does not preempt
federal claims over which the state court has
concurrent jurisdiction.
Preemption is a different from jurisdiction.
Typically, ERISA preempts state law when (1) the
state law is specifically designed to affect employee
benefits; (2) the state law and common law claims are
for the recovery of an ERISA plan benefit; (3) ERISA
provides a specific remedy; and (4) state laws and
common law claims provide remedies for misconduct

37a
growing out of ERISA plan administration. See Halley
v. Ohio Co., 107 Ohio App.3d 518 (8th Dist. 1995).
ERISA preemption does not mean, however, that
state courts do not have jurisdiction to hear federal
claims regarding benefits due under ERISA. Here,
Plaintiff is attempting to recover benefits she believes
are due her under the plan.
The Fifth District Court of Appeals has interpreted
29 U.S.C. (a)(1)(B) to mean that the common pleas
court has concurrent jurisdiction over the claims for
denial of benefits. In Melesky v. Summa Care, Inc., the
5th District found that the common pleas court had
concurrent jurisdiction over a case were the insurer
cancelled the plan instead of paying
Plaintiff’s claims.
Likewise, this Court has concurrent jurisdiction to
hear Plaintiff’s claims.
Accordingly, it is hereby
ORDERED, ADJUDGED and DECREED that
Defendants’ Motion to Dismiss is DENIED. The
Court hereby schedules a damages hearing for
May 18, 2017 at 10:00 a.m.
IT IS SO ORDERED.
/s/ John G. Haas
JOHN G. HAAS, JUDGE

38a
Copies to:

Atty. Robert J. Tscholl
Atty. G. Brenda Coey

39a
Appendix I
IN THE COURT OF COMMON PLEAS
STARK COUNTY, OHIO
____________
RHONDA MEADOWS
Plaintiff
v.
JACKSON RIDGE REHABILITATION AND CARE,
et al.
Defendants
____________
CASE NO. 2015CV02169
__________
MAGISTRATE’S DECISION/JUDGMENT ENTRY
Entered: 6-21-2017
This matter came on for consideration upon a
damages hearing held on May 18, 2017. Plaintiff
appeared for the hearing represented by counsel.
Defendants did not appear.
Upon review of the record, the testimony of the
Plaintiff, the evidence presented at the hearing as to
damages, this Court,
FINDS that Defendants have admitted to liability.

40a
FINDS that the Plaintiff presented evidence in
support of an award of Monetary Damages consisting
of actual damages, pain and suffering, and punitive
damages.
FINDS that after consideration, the Court
concludes that the Plaintiff has proven, by a
preponderance of the evidence, relating to the Actual
Damages issue that she is entitled to Monetary
Damages as follows:
Damages:
Description of Award

Amount

Lost and diminished wages

$32,884.00

Medical bills

$31,473.05

Compensatory

$5,000.00

Punitive Damages

$5,000.00

Total Damages

$73,357.05

FINDS that judgment should be awarded to the
Plaintiff against Defendants in the amount of
$73,357.05 plus interest at the statutory rate. Costs to
Defendants.
IT IS SO ORDERED.
/s/ Natalie R. Haupt
_
MAGISTRATE NATALIE R. HAUPT

41a
Adopted and Approved:
/s/ John G. Haas
JOHN G. HAAS, JUDGE

_

NOTICE TO THE PARTIES:
A party shall not assign as error on appeal the Court’s
adoption of any factual or finding or legal conclusion,
whether or not specifically designated as a finding of
fact or conclusion of law under Civ. R. 53(D)(3)(a)(ii),
unless the party timely and specifically objects to that
factual finding or legal conclusion as required by Civ.
R. 53(D)(3)(b).
Copies to:

Atty. Robert J. Tscholl
Atty. G. Brenda Coey

42a
Appendix J
IN THE COURT OF COMMON PLEAS
STARK COUNTY, OHIO
____________
RHONDA MEADOWS
Plaintiff
v.
JACKSON RIDGE REHABILITATION AND CARE,
et al.
Defendants
____________
CASE NO. 2015CV02169
__________
JUDGMENT ENTRY
Entered: 10-5-2017
This matter came on for consideration upon the
Magistrate’s Decision, which was filed in the instant
matter on June 21, 2017. Defendants filed objections
and a motion to set aside the Magistrate’s Decision.
Plaintiff filed a Response. Defendants also filed a
supplemental brief.
Upon review of the transcript and the arguments
of counsel, the Court finds the objections to be not well
taken and OVERRULES the same. Additionally, this
Court adopts the Magistrate’s Decision as a final
judgment entry.

43a

IT IS SO ORDERED.
/s/ John G. Haas
JOHN G. HAAS, JUDGE
Copies to:

Atty. Robert J. Tscholl
Atty. G. Brenda Coey

44a
Appendix K
2018 WL 3302171
COURT OF APPEALS OF OHIO, FIFTH DISTRICT,
STARK COUNTY.
RHONDA MEADOWS, PLAINTIFFSAPPELLEES/CROSS-APPELLANTS
v.
JACKSON RIDGE REHABILITATION AND
CARE, et al, Defendants-Appellants/Cross
Appellees
No. 2017CA00207
DATE OF JUDGMENT ENTRY: June 25, 2018
Civil appeal from the Stark County Court of Common
Pleas, Case No. 2015CV02169.
Attorneys and Law Firms
ROBERT TSCHOLL, 400 South Main Street, North
Canton, OH 44720, For Plaintiff-Appellee CrossAppellant.
G.BRENDA COEY, 29225 Chagrin Blvd., Suite 230,
Cleveland, OH 44122, For Defendant-Appellant
Cross-Appellee.
JUDGES: Hon. John W. Wise, P.J., Hon. W. Scott
Gwin, J., Hon. Earle E. Wise, J.
OPINION
Gwin, J.

45a
*1 { ¶ 1}
Defendant-appellants Jackson Ridge
Rehabilitation and Care and Providence Healthcare
Management, Inc. [collectively “Appellants”] appeal
the October 5, 2017 Judgment Entry of the Stark
County Court of Common Pleas overruling their
objections and motion to set aside a magistrate’s
opinion that was adopted by the trial court. Appelleecross-appellant is Rhonda Meadows [“Meadows”].
Facts and Procedural History
{ ¶ 2} Meadows is a registered nurse. She was hired
by Appellants to be the director of nursing at Jackson
Ridge Rehabilitation and Care in September 2014.
Jackson Ridge is the registered trade name of Gaslite
Leasing,
LLC
and
Providence
Healthcare
Management is an affiliated management company.
{ ¶ 3} Meadows terms of employment included health
care under the employer sponsored health care plan.
Meadows took advantage of that offered benefit and
began working for Appellants at Jackson Ridge on or
about October 17, 2014.
{ ¶ 4} In May 2015, Meadows suffered an acute
medical condition and required time off for surgery.
Meadows
contacted
Appellants
management
regarding her need for surgery. Appellants requested
that Meadows wait until the annual survey was
completed before surgery was scheduled.
{ ¶ 5} In mid-June 2015, Meadows medical condition
became emergent and she returned to her physician.
The surgery was scheduled for June 26, 2015.
Meadows immediately conveyed to Appellants her
need for surgery. Meadows claimed that she was

46a
informed on June 25, 2015 that if she had the surgery
she would be terminated from her employment.
{ ¶ 6} Meadows claimed she had the surgery to relive
her pain on June 26, 2015. She later learned that not
only had Appellants terminated her employment on
June 25, 2015, but they had terminated her health
care insurance as well, so her surgery and hospital
stay were not covered. However, Meadows contended
that Appellants continued to deduct health care
premiums from her pay, which was shown on her last
pay stub on July 3, 2015.
{ ¶ 7} Meadows filed suit on October 16, 2015. On
October 23, 2015, Jackson Ridge received service of
Meadows’ Complaint. Jackson Ridge failed to timely
answer, and Meadows moved the Trial Court for
default judgment against Appellants on Friday,
December 4, 2015. The Trial Court granted default
judgment on Monday, December 7, 2015. Jackson
Ridge moved the Trial Court for leave to file its
Answer instanter on December 11, 2015. Appellants
filed a Motion for Relief from Judgment on December
15, 2015. The Trial Court denied these Motions on
August 25, 2016, following a hearing conducted by the
Trial Court’s Magistrate.
{ ¶ 8} On September 9, 2016, the Court set a Damage
hearing for October 27, 2016. Immediately on
September 23, 2016, Appellant filed a Notice of Appeal
with this Court, which was Case No. 2016 CA 00174.
On October 24, 2016, this Court dismissed the appeal
as not a final appealable order.
{ ¶ 9} The Court again, set a damage hearing for
December 16, 2016. On December 15, 2016,

47a
Appellants filed a Motion to Dismiss for Lack of
Jurisdiction. The parties briefed the Motion and it was
denied on April 26, 2017. The Court set a third
damages hearing for May 18, 2017. On May 18, 2017,
Appellee and her counsel appeared. Appellants and
their counsel did not. The magistrate called the
Appellant’s attorney, and learned that the attorney
had left the firm, and had not updated her address
with the Stark County Common Pleas Court or with
the Ohio Supreme Court. T. May 18, 2017 at 3-4.
*2 { ¶ 10} The magistrate proceeded with the hearing
on May 18, 2017 and entered a decision on June 21,
2017. The Court entered judgment for Meadows and
against Appellants in the amount of Seventy-Three
Thousand Three Hundred Fifty-Seven 05/100 Dollars
($73,357.05) plus interest. Appellants filed a Motion
for Stay and on June 30, 2017, objections to the
magistrate’s decision. On July 3, 2017, Appellants
filed a motion to set aside the judgment of June 21,
2017.
{ ¶ 11} On October 5, 2017, Judge Haas overruled
those objections and adopted the Magistrates decision
as a final entry.
Assignments of Error
{ ¶ 12} Appellants have presented three assignments
of error for our consideration:
{ ¶ 13} “I. THE TRIAL COURT LACKED SUBJECT
MATTER JURISDICTION TO DECIDE PLAINTIFFAPPELLEE/CROSS-APPELLANT’S CLAIMS.

48a
{ ¶ 14}
“II. THE TRIAL COURT ERRED IN
GRANTING
PLAINTIFF-APPELLEE/CROSSAPPELLANT’S
MOTION
FOR
DEFAULT
JUDGMENT AND DENYING DEFENDANTSAPPELLANTS/CROSS-APPELLEE’S MOTION TO
SET ASIDE DEFAULT JUDGMENT.
{ ¶ 15} “III. THE TRIAL COURT ERRED IN
AWARDING
DAMAGES
BEYOND
THOSE
AUTHORIZED BY STATUTE.”
{ ¶ 16} Meadows for her cross-appeal raises one
assignment of error:
{ ¶ 17} “I. THE TRIAL COURT ERRED BY NOT
AWARDING ATTORNEY FEES FOR APPELLEE.”
Jurisdiction of the Court of Appeals
{ ¶ 18} In the case at bar, we must address the
threshold issue of whether the judgment appealed is a
final, appealable order. Meadows in her cross-appeal
has argued the trial court erred in not awarding her
attorney fees.
{ ¶ 19} Even if a party does not raise the issue, this
court must address, sua sponte, whether there is a
final appealable order ripe for review. State ex rel.
White vs. Cuyahoga Metro. Hous. Aut., 79 Ohio St.3d
543, 544, 1997-Ohio-366, 684 N.E.2d 72.
{ ¶ 20} Appellate courts have jurisdiction to review
the final orders or judgments of lower courts within
their appellate districts. Section 3(B) (2), Article IV,
Ohio Constitution. If a lower court’s order is not final,
then an appellate court does not have jurisdiction to

49a
review the matter and the matter must be dismissed.
General Acc. Ins. Co. vs. Insurance of North America,
44 Ohio St.3d 17, 20, 540 N.E.2d 266 (1989); Harris v.
Conrad, 12th Dist. No. CA-2001-12 108, 2002-Ohio3885. For a judgment to be final and appealable, it
must satisfy the requirements of R.C. 2505.02 and if
applicable, Civ. R. 54(B). Denham v. New Carlisle, 86
Ohio St.3d 594, 596, 716 N.E.2d 184 (1999); Ferraro v.
B.F. Goodrich Co., 149 Ohio App.3d 301, 2002-Ohio4398, 777 N.E.2d 282. If an order is not final and
appealable, an appellate court has no jurisdiction to
review the matter and it must be dismissed.
{ ¶ 21} In the case at bar, Meadows brought a claim
under the Employee Income Retirement Security Act
of 1974 [ERISA”]. ERISA authorizes courts in their
discretion to award reasonable attorney fees.
Massachusetts Mut. Life Ins. Co. v. Russell, 473 U.S.
134, 147, 105 S.Ct. 3085, 3093, 87 L.Ed.2d 96(1985).
Richland Hosp., Inc. v. Ralyon, 33 Ohio St.3d 87, 516
N.E.2d 1236, 1239-1240 (1987); Section 1132(g)(1),
Title 29, U.S. Code.
{ ¶ 22} Punitive damages may be awarded in tort
cases involving fraud, insult or malice. Columbus
Finance, Inc. v. Howard, 42 Ohio St.2d 178, 183, 327
N.E.2d 654(1975). If punitive damages are proper, the
aggrieved party may also recover reasonable attorney
fees. Id. Meadows has premised her claim for punitive
damages on the alleged intentional and malicious
misconduct in accepting her insurance premiums and
terminating her employment in an attempt to avoid
liability on insurance claims. In the case at bar, the
trial court awarded Meadows $5,000.00 in punitive
damages.

50a
*3 { ¶ 23} The Ohio Supreme Court has held that
when attorney fees are requested in the original
pleadings, an order that does not dispose of the
attorney-fee claim and does not include a Civ. R. 54(B)
determination that there is no just cause for delay is
not a final, appealable order. Internatl. Bd. of
Electrical Workers, Local Union No. 8 v. Vaughn
Industries, L.L.C., 116 Ohio St. 3d 335, 2007– Ohio–
6439, 879 N.E. 2d 187, paragraph 2 of the syllabus.
{ ¶ 24} In the case at bar, the trial court held a
hearing on damages during which Meadows presented
evidence on her attorney fees. T. May 18, 2017 at 3237. The June 21, 2017 Judgment Entry of the trial
court does not mention attorney fees and does not
contain a Civ. R. 54(B) determination that there is no
just cause for delay. We therefore find that based on
the reasoning of the Ohio Supreme Court in Vaughn,
supra, the judgment appealed from is not a final,
appealable order.
{ ¶ 25} The appeal is dismissed.
Wise, John, P.J.,
Wise, Earle, J., concur
All Citations
Slip Copy, 2018 WL 3302171, 2018 -Ohio- 2653

51a
Appendix L
IN THE COURT OF COMMON PLEAS
STARK COUNTY, OHIO
____________
RHONDA MEADOWS
Plaintiff
v.
JACKSON RIDGE REHABILITATION AND CARE,
et al.
Defendants
____________
CASE NO. 2015CV02169
__________
JUDGMENT ENTRY
Entered: 11-6-2018
This matter came on for consideration upon
Defendants’ Motion for Reconsideration. Plaintiff
filed a Response.
Upon review, the Court finds the Motion for
Reconsideration to be not well taken and
OVERRULES the same.
IT IS SO ORDERED.
/s/ John G. Haas
JOHN G. HAAS, JUDGE

52a

Copies to:

Atty. Robert J. Tscholl
Atty. G. Brenda Coey

53a
Appendix M
IN THE COURT OF COMMON PLEAS
STARK COUNTY, OHIO
____________
RHONDA MEADOWS
Plaintiff
v.
JACKSON RIDGE REHABILITATION AND CARE,
et al.
Defendants
____________
CASE NO. 2015CV02169
__________
MATISTRATE’S DECISION/JUDGMENT ENTRY
Entered: 12-5-2018
This matter came on for consideration upon a
hearing on attorney fees.
In the case at bar, Meadows brought a claim under
the Employee Income Retirement Security Act of 1974
[“ERISA”]. ERISA authorizes courts in their
discretion to award reasonable attorney fees.
Massachusetts Mut. Life Ins. Co. v. Russell, 473 U.S.
134, 147, 105 S.Ct. 3085, 3093, 87 L.Ed.2d 96(1985).
Richland Hosp., Inc. v. Ralyon, 33 Ohio St.3d 87, 516
N.E.2d 1236, 1239-1240 (1987); Section 1132(g)(1),
Title 29, U.S. Code. Punitive damages may be

54a
awarded in tort cases involving fraud, insult or malice.
Columbus Finance, Inc. v. Howard, 42 Ohio St.2d 178,
183, 327 N.E.2d 654(1975).
If punitive damages are proper, the aggrieved
party may also recover reasonable attorney fees. Id.
Meadows has premised her claim for punitive
damages on the alleged intentional and malicious
misconduct in accepting her insurance premiums and
terminating her employment in an attempt to avoid
liability on insurance claims. In the case at bar, this
court previously awarded Meadows $5,000.00 in
punitive damages.
Courts have considered a number of factors in
determining whether to grant such fees under ERISA.
See, e.g., Chambless v. Masters, Mates & Pilots
Pension Plan, 815 F.2d 869 (2d Cir. 1987). The Sixth
Circuit has adopted a five-factor test to determine
whether to award attorney fees under ERISA: (1) the
degree of the opposing party’s culpability or bad faith;
(2) the ability of the opposing party to satisfy an award
of attorney fees; (3) whether an award of attorney fees
against the opposing party would deter others from
acting in similar circumstances; (4) whether the party
requesting fees sought to benefit all participants and
beneficiaries of an ERISA plan or resolve a significant
legal question; and (5) the relative merits of the
parties’ positions. Secretary of Dept. of Labor v. King,
775 F.2d 666, 669, 6 Employee Benefits Cas. (BNA)
2452, 3 Fed. R. Serv. 3d 809 (6th Cir. 1985) (adopting
the test used in other circuits). The only guidance
provided by the statute for computing the amount of
an attorney fee award is that it must be “reasonable.”
29 U.S.C.A § 1132(g). Drennan v. General Motors
Corp., 977 F.2d 246 (6th Cir. 1992)

55a

Upon review of the record, the testimony of the
witnesses, the evidence presented at the hearing as to
damages, and considering all five factors, this Court
finds that an award of attorney fees is warranted.
After consideration, the Court concludes that the
Plaintiff has proven, by a preponderance of the
evidence, relating to attorney fees, that she is entitled
to reasonable attorney fees as follows:
Legal Services rendered from 7/17/15 - 11/6/17:
$19,0001
The Court finds that fees incurred as part of the
appeal should not be included because doing so would,
in effect, punish Defendant for exercising its right to
appeal.
The Court FINDS that judgment should be
awarded to the Plaintiff against Defendants in the
amount of $19,000.
IT IS SO ORDERED.
/s/ Natalie R. Haupt
_
MAGISTRATE NATALIE R. HAUPT
Adopted and Approved:
/s/ John G. Haas
JOHN G. HAAS, JUDGE

1

See Exhibit A from September 10, 2018.

_

56a
NOTICE TO THE PARTIES:
A party shall not assign as error on appeal the Court’s
adoption of any factual or finding or legal conclusion,
whether or not specifically designated as a finding of
fact or conclusion of law under Civ. R. 53(D)(30)(a)(ii),
unless the party timely and specifically objects to that
factual finding or legal conclusion as required by Civ.
R. 53(D)(3)(b).
Copies to:

Atty. Robert J. Tscholl
Atty. G. Brenda Coey

